No. 20-74

In the Supreme Court of the United States
United States of America,

Petitioner,
v.
Image Processing Technologies LLC, et al.,

Respondents.
PROOF OF SERVICE
I hereby certify that on August 26, 2020, I caused three copies of the
Memorandum in Response for Respondent Rovi Guides, Inc. to be served by regular
mail and electronic mail to the counsel of record listed below.
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Room 5616
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Nicholas T. Matich
Acting General Counsel
Office of the General Counsel
United States Patent
and Trademark Office
P.O. Box 1450
Alexandria, VA 22313-1450

Counsel for Petitioner
United States of America

Counsel for Petitioner Andrei Iancu,
Under Secretary of Commerce for
Intellectual Property and Director, U.S.
Patent and Trademark Office

Frederic Meeker
Banner & Witcoff, Ltd.
1100 13th Street, NW
Suite 1200
Washington, DC 20005
fmeeker@bannerwitcoff.com

Counsel for Respondent Comcast Cable
Communications, LLC

I hereby certify that all parties required to be served have been served. I
declare under penalty of perjury that the foregoing is true and correct.
Executed on the 26th day of August 2020.
/s/ Michael E. Joffre
MICHAEL E. JOFFRE
STERNE KESSLER GOLDSTEIN & FOX, PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202.371.2600

Counsel for Respondent Rovi Guides, Inc.

